No. 19-164

IN THE

buprente Court of tije Mutter( Otateo
DAVID SAMARRIPA, ET AL.,
Petitioners,
v.
GREGORY KIZZIAH,WARDEN, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

REPLY BRIEF IN SUPPORT OF
CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,986 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 23, 2019.

Cohn Casey Hoga
Wilson-Epes Printing Co., Inc.

